No. 20-1163

In the Supreme Court of the United States
__________
GLOUCESTER COUNTY SCHOOL BOARD, PETITIONER,
v.
GAVIN GRIMM
__________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit
__________
SUPPLEMENTAL BRIEF FOR PETITIONER
__________
DAVID P. CORRIGAN
JEREMY D. CAPPS
M. SCOTT FISHER JR.
HARMAN, CLAYTOR,
CORRIGAN & WELLMAN
Post Office Box 70280
Richmond, VA 23225
(804) 747-5200

GENE C. SCHAERR
Counsel of Record
ERIK S. JAFFE
H. CHRISTOPHER BARTOLOMUCCI
HANNAH C. SMITH
JOSHUA J. PRINCE
SCHAERR | JAFFE LLP
1717 K Street NW, Suite 900
Washington, DC 20006
(202) 787-1060
gschaerr@schaerr-jaffe.com

Counsel for Petitioner

As the petition (at 13) predicted, the Department
of Education has now concluded that Title IX extends
to discrimination based on gender identity and, by
clear implication, has adopted the Fourth Circuit’s
position on the application of Title IX to bathrooms.
Citing the decision below and this Court’s decision in
Bostock v. Clayton County, 140 S. Ct. 1731 (2020), on
June 16, 2021, the Department issued a Notice of
Interpretation of Title IX. In so doing, the Department
promised to “fully enforce Title IX to prohibit
discrimination based on *** gender identity in
education programs and activities that receive
Federal assistance from the Department.”1 This new
development reinforces both the importance of the
question presented and the necessity (and urgency) of
this Court’s review.
1. The petition explained that the President’s
January 20, 2021, executive order left “no room for
doubt” on how the Department of Education would
interpret Title IX, including its application to
bathrooms and other “living facilities.” Pet.13 n.6. As
the Board predicted it would, the Department has now
joined every circuit to address whether Title IX’s
interpretation of “sex” included “gender identity” by
holding that Title IX prohibits distinctions based on
gender identity. Interpretation at 11. That

Federal Register Notice of Interpretation: Enforcement of
Title IX of the Education Amendments of 1972 with Respect to
Discrimination Based on Sexual Orientation and Gender Identity
in Light of Bostock v. Clayton County 11 (June 16, 2021),
https://tinyurl.com/TitleIXInterpretation
(“Interpretation”)
(emphasis added).
1

2
interpretation now effectively governs nationwide.
Pet.17-23; Reply.4-8.
To be sure, the Department’s Interpretation does
not directly reference the restroom issue. Nor does it
alter the fact that, in providing Grimm and every
other student access to a single-user restroom, the
Board did not discriminate against Grimm and,
therefore, did not violate Title IX or the Equal
Protection Clause.
But the clear implication of the Department’s new
guidance is that it intends to enforce the Fourth
Circuit’s interpretation of Title IX as applied to
bathrooms and other “living facilities”:
The
Department’s citations to the Fourth Circuit’s decision
in this case—which directly addressed Title IX’s
application to restrooms—and the earlier executive
order expressly addressing restrooms and locker
rooms are the writing on the wall.2
The fact that an erroneous interpretation of Title
IX is now the “nationwide policy of the United States”
provides more reason for this Court to quickly decide
the question presented. Pet.13. Until it does, schools
and school boards around the country will remain at
great risk of losing federal funding and will therefore
be practically unable to exercise their best judgment
about how to address the individualized needs of their
students in this sensitive context.

See The White House, Executive Order on Preventing and
Combating Discrimination on the Basis of Gender Identity or
Sexual Orientation (Jan. 20, 2021), https://tinyurl.com/Jan20EO.
2

3
2. The Interpretation changes the legal landscape
in undecided circuits but does nothing to undermine
this case as an excellent vehicle for resolving the
question presented. See Pet.35-37; Reply 10-11. The
fact remains that the Board and similarly situated
school boards around the country will effectively
remain “unable to decide for themselves” how best to
respond to accommodation requests from transgender
students until this Court provides a proper
interpretation of Title IX and the Equal Protection
Clause. Reply 9. That is because, for most school
districts, the threat of losing federal education funds
effectively requires compliance with the Department’s
will. See, e.g., NFIB v. Sebelius, 567 U.S. 519, 582
(2012) (“The threatened loss” of large portions of a
State’s budget is “economic dragooning that leaves the
States with no real option but to acquiesce[.]”).
In short, for the Board and hundreds of other
school boards across the country, this Court’s
resolution of the question presented is urgently
needed. The petition should be granted.

4
Respectfully submitted.
DAVID P. CORRIGAN
JEREMY D. CAPPS
M. SCOTT FISHER JR.
HARMAN, CLAYTOR,
CORRIGAN & WELLMAN
Post Office Box 70280
Richmond, VA 23225
(804) 747-5200
June 21, 2021

GENE C. SCHAERR
Counsel of Record
ERIK S. JAFFE
H. CHRISTOPHER BARTOLOMUCCI
HANNAH C. SMITH
JOSHUA J. PRINCE
SCHAERR | JAFFE LLP
1717 K Street NW, Suite 900
Washington, DC 20006
(202) 787-1060
gschaerr@schaerr-jaffe.com

